Inspection Report I-99-01
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
Review of the Violent Crime Task Forces of the
United States Attorney's Office for the
District of Columbia
December 1998
Report Number I-99-01
TABLE OF CONTENTS
Transmittal Memorandum
EXECUTIVE DIGEST
INTRODUCTION
Background
Operation Ceasefire Program Goal
and Objectives
Aggressively Detect and Seize Illegal Firearms
Increase the Penalties for Individuals
Convicted of Illegally Possessing Firearms
Educate Youth about the Destructive Potential of
Firearms
Safe Streets Program Goal and Objectives
RESULTS OF INSPECTION
Operation Ceasefire Program
Accomplishments
Illegal Firearms Seized
Innovative and Effective Training Provided
Individual GRUs Established
GRUs Focused Exclusively on Seizure of
Firearms
ATF Assisted in Tracing Seized Firearms
"Firearms Prosecutor" Designated
Standard Debriefing Protocol Established
USAO Expanded Its Debriefing Program
Penalties Increased for Individuals Convicted
of Illegally Possessing Firearms
District of Columbia Code Title 22 Section 3204
Amended
District of Columbia Code Title 23 Section 1331
Amended
USAO Introduced Forfeiture Provision to Seize
Vehicles
USAO Encouraged Curfew Legislation
USAO Initiated a Youth Education Program
Conclusion
Review of Operation Ceasefire Financial Controls
Quarterly Financial and Progress Reports Not Always
Submitted
Accounting Records Reflect Inaccuracies
Overtime Invoices Not Submitted Regularly
Overtime Invoices Reflect Inaccuracies
Overtime Invoices Included Claims for
Non-Operation Ceasefire Cases
USAO Reimbursements Exceeded Overtime
Limitations
The USAO Did Not Properly Account for
Operation Ceasefire Property
Conclusion
Recommendations
Safe Streets Program Accomplishments
Review of Safe Streets Financial Controls
Overtime Invoices Reflect Inaccuracies
Conclusion
Recommendation
APPENDIX I - Scope and Methodology
APPENDIX II - District of Columbia Violent Crime Rates,
1980-1997
APPENDIX III - District of Columbia Part I Index Violent
Crimes, 1980-1997
APPENDIX IV - District of Columbia Population, 1980-1997
APPENDIX V - Cumulative GRU Activities and Accomplishments
by Category
APPENDIX VI - Executive Office for United States
Attorneys' Response to the Draft Report
APPENDIX VII - United States Attorney for the District of
Columbia Response to the Draft Report
APPENDIX VIII - Federal Bureau of Investigation
Inspections Division Response to the Draft Report
APPENDIX IX - Office of the Inspector General's Analysis
of Managements' Responses
MEMORANDUM FOR DONNA A. BUCELLA
DIRECTOR
EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
FROM:
MICHAEL
R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Review
of the Violent Crime Task Forces of the
United States Attorney's Office for the District of Columbia,
Report Number I-99-01
Attached is the final report on our review of the Violent Crime Task Forces (VCTF) of
the United States Attorney's Office for the District of Columbia (USAO), and we are
pleased to provide you with the results. The prior Director, Executive Office for United
States Attorneys, requested that the Office of the Inspector General (OIG) review its VCTF
program. The objectives of our review were to determine whether the VCTF was meeting its
program objectives as identified in the task force proposal, whether the task force was
expending funds for approved purposes, and whether program managers were providing
adequate oversight.
We sent copies of the draft report to your office on August 21, 1998, and requested
written comments on the findings and recommendations. We have attached your response as
Appendix VI and the USAO's response as Appendix VII, both dated October 26, 1998. The
Federal Bureau of Investigation's September 23, 1998, response also is attached as
Appendix VIII.
At the request of the United States Attorney, we revised the report to include
additional information regarding legislative changes that the USAO achieved separately
from the original objectives of Operation Ceasefire.
On the basis of the written comments we received, we consider the five recommendations
resolved and open. Appendix IX explains why the recommendations were not closed and what
action is needed for closure. Please respond to the recommendations within 90 days of the
date of this memorandum. Your response should provide the additional information
requested. If actions are not completed within 90 days, please provide projected
completion dates. Guidance on report follow-up and resolution can be found in Department
of Justice Order 2900.10.
We hope our recommendations will be useful in your efforts to improve and enhance the
VCTF operations and the overall VCTF initiative. Please let me know if we can provide you
with any additional information. If you have any suggestions as to how we might improve
our review process, please let us know.
cc: David Downs
Liaison
Executive Office for United States Attorneys
Wilma A. Lewis
United States Attorney
District of Columbia
Louis J. Freeh
Director
Federal Bureau of Investigation
Vickie Sloan
Director
Audit Liaison Office
EXECUTIVE DIGEST
At the request of the Director, Executive Office for United States
Attorneys (EOUSA), the Office of the Inspector General has completed a review of the
Violent Crime Task Forces (VCTF) of the United States Attorney's Office (USAO) for the
District of Columbia. The objectives of the inspection were to determine whether the VCTFs
met their program objectives as identified in the task force proposals, whether the task
forces expended funds for approved purposes, and whether program managers provided
adequate oversight.
The USAO received funding to create a gun task force known as Operation
Ceasefire. The USAO also received funds so the Federal Bureau of Investigation (FBI) could
continue the operations of the fugitive, gang, and homicide squads in its Safe Streets
Initiative (Safe Streets). Since the inception of Operation Ceasefire and the USAO's
funding of Safe Streets, the USAO has reported to the EOUSA a reduction in the levels of
gun-related violence, and success in the apprehension of violent offenders, the
investigation and prosecution of violent gang members, and the closure of major homicide
cases in the District of Columbia. Since 1995, the violent crime rate has decreased by
15.76 percent and the number of violent crimes reported to police has decreased by 19.75
percent in the District of Columbia. Although we did not determine whether the decrease in
violent crime is attributable to the activities of Operation Ceasefire and Safe Streets,
we did ascertain that the USAO and FBI conducted activities in support of their
objectives.
The USAO's administrative and internal controls over the expenditure of
funds for Operation Ceasefire need improvement. Based on our review of the USAO's
accounting records and other selected documents, we questioned $78,982 of the Operation
Ceasefire costs incurred because of inaccurate or duplicate claims. In addition, the USAO
failed to thoroughly review overtime reimbursements to the Metropolitan Police Department
(MPD) and failed to enforce the EOUSA's annual overtime limitation resulting in
overpayments totaling $78,254. The USAO's Operation Ceasefire accounting records were not
accurate, quarterly reports were not prepared, property records were not established, a
property inventory was not performed, and property was improperly titled to the District
of Columbia.
As of March 31, 1998, the USAO reported the total expenditure of the funds
approved for Safe Streets and the expenditure of 86 percent of the funds approved for
Operation Ceasefire. We found that the USAO had $123,151 remaining in the Operation
Ceasefire operating budget and these funds had not been obligated for a specific purpose.
If the USAO decides to use remaining VCTF funds to continue the MPD's gun recovery
activities, we believe that the USAO must strengthen the administrative and internals
controls over the expenditure of the funds. Specifically, the USAO should ensure that
quarterly financial and progress reports are prepared, the accounting records accurately
reflect Operation Ceasefire expenditures, the Operation Ceasefire property custodian has
been properly trained in the position's responsibilities, the property records have been
established for Operation Ceasefire, a property inventory is performed bi-annually, and
that titles to the vehicles purchased with VCTF funds are obtained by the USAO and
retitled. The USAO should also recover $78,982 in improper reimbursements from the MPD and
restore these funds to the Operation Ceasefire account. Additionally, the USAO's
reimbursable agreement with the MPD should require the identification of Operation
Ceasefire cases on court appearance sheets, and the submission of arrest reports to
substantiate that the arrests were made by task force personnel.
We also found that the MPD submitted inaccurate police officer overtime
invoices to the FBI for Safe Streets activities. Specifically, the MPD's monthly invoices
contained incorrect hourly overtime rates and inaccurate reporting of overtime worked by
several of the 26 police officers assigned to the Safe Streets squads. We examined the
MPD's payroll records and other overtime documentation. We found some inaccuracies--both
understated and overstated--in the MPD's hourly overtime rates and number of hours worked.
We believe that the FBI needs to strengthen its administrative and
internal controls over the review of Safe Streets overtime invoices. Our review disclosed
that the FBI had not clearly established procedures for reviewing overtime invoices. The
FBI needs to clarify the administrative responsibilities of the Washington Field Office
(WFO) and the Headquarters' Safe Streets and Gang Unit for reviewing invoices. We suggest
that the FBI request annual salary records from the MPD to determine the correct hourly
overtime rates for officers assigned to Safe Streets. We also suggest that the FBI meet
with MPD's Office of Finance and Budget personnel to ensure that the MPD's monthly
overtime invoices identify the correct hourly overtime rates and number of hours worked.
In addition, according to the WFO Safe Streets Coordinator, the WFO has an internal policy
of not reimbursing the MPD for overtime worked by supervisors assigned to the Safe Streets
squads. Therefore, the FBI improperly reimbursed the MPD for a supervisor's overtime. The
FBI should obtain $4,489 from the MPD for the supervisor's overtime.
#####